No. 20-429
IN THE

Supreme Court of tlje Entteb States
America

n

Medi

cal

Asso

ciat ion

, et al.,

Petitioners,
V.

ALEX M. Azar , II, Secretary of Health and Human Services, et al.,

Respondents.
CERTIFICATE OF SERVICE
Jeffrey W. Lang, a member of the bar of this Court, hereby certifies that all parties
required to be served, as listed below, have been served with a copy of the
accompanying Brief for Respondents on November 4, 2020, and that all parties have
consented to service by electronic mail:
Counsel for petitioners
Paul R. Q. Wolfson
Wilmer Cutler Pickering Hale
and Dorr, LLP
Paul.Wolfson@wilmerhale.com
Counsel for respondents Alex M. Azar et al.
Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
SupremeCtBriefs@USDOJ.gov
Hashim.Mooppan@usdoj.gov
Brinton.Lucas@usdoj. gov
Counsel for respondent State of Washington
Noah G. Purcell
Solicitor General
Office of the Attorney General
State of Washington
noah.purcell@atg.wa.gov
comcec@atg.wa.gov
kristin.beneski@atg.wa.gov

Executed November 4, 2020

Deputy Solicitor General
New York State Office of the Attorney General
The Capitol
Albany, NY 12224
Counsel for States of Oregon, New York,
California, Colorado, Connecticut, Delaware,
Hawaii, Illinois, Maryland, Massachusetts,
Michigan, Minnesota, Nevada, New Jersey,
New Mexico, North Carolina, Pennsylvania,
Rhode Island, Vermont, Virginia, and
Wisconsin, and the District of Columbia

